IN THE SUPREME COURT OF THE UNITED STATES
No. 19-251

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
Vv.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE ATTORNEY
GENERAL OF CALIFORNIA
Respondent,

CERTIFICATE OF SERVICE

I, Robert Alt, counsel for The Buckeye Institute, hereby certify that on this
25th day of September, 2019, I caused three copies of the Brief of The
Buckeye Institute as Amici Curiae in Support of Petitioner to be served by
overnight delivery on the following counsel:

Derek L. Shaffer Aimee Athena Feinberg
Quinn Emanuel Urquhart California Department of
& Sullivan, LLP Justice

1300 I Street NW, Suite 900 1300 I Street

Washington, DC 20005 Sacramento, CA 95814
derekshaffer@quinnemanuel.com Aimee.Feinberg@doj.ca.gov
Attorney for Petitioner Attorney for Respondent

I further certify that all parties required to be served have been served.

 

BERT ALT
Counsel of Record
THE BUCKEYE INSTITUTE
88 East Broad Street
Suite 1300
Columbus, OH 43215
(614) 224-4422
robert@buckeyeinstitute.org
